                                                         WORKSHEET
        File Number OID-90-3 I 7                        (~90-04)               Date          3/~/70
        AIG-Oversight
                                                                                                ~YL
                                                                                         A I G / . .




                                                                                &-
                    /-

                    d0m-d
                             -vruP-



                                           vt
                                              "'          ,,&&             5-v
                                                                                11
                                                                                /"""
                                                                                     t;i'&
                                                                                                    h 5 w d
                                                                                                    M-&'
                                                                                               ic"U ''A
                     /Irs/=           #             cL
                                                                                        J           y         d
                         ,& & u N J F
                     w ''4                                            .y


                     m k w; t6/ & a,*.
s3              @
                         g
                         L0
                          .           co   m   u   ap
                                                    '/                                                        1-3
                                                    'yo                        @ 5f=-
                         ?A,               4LGt             nu;t     &u


?-.rJI.l\    *u     4 - h - L                                  ,+L/Udi w                      Y("   A .d7




                                                                                     -
                                                                           V
                       I                                    /




"                                                   0      L%va&J5        LM'F~~
                                                                                                              7       -   t
                                                                                             Lt&k       Ir
 &/zA        cc-c        _GL&fL
                         ,             l&-L~vrJ*-           c"*/+-         &$


                                                   A, a,fy+&L9-I 44-                                              -
     /r.tz
  &JJW
             " y-
                ffy
                  /L                                                                     h          r
 Z   'ftq*
                                 +w9       ,
                                           -
                                           &
                                           t
